TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         The Online Payment Agreement
                       Program Benefits Taxpayers and the
                       Internal Revenue Service, but More
                         Could Be Done to Expand Its Use



                                      September 27, 2013

                              Reference Number: 2013-30-121




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                 HIGHLIGHTS


THE ONLINE PAYMENT AGREEMENT                        addition, the default rate of streamlined
PROGRAM BENEFITS TAXPAYERS AND                      installment agreements processed with the
THE INTERNAL REVENUE SERVICE,                       OPA program is 44 percent lower than the
BUT MORE COULD BE DONE TO                           overall default rate, leading to increased
                                                    revenue with the OPA program.
EXPAND ITS USE
                                                    The IRS projected that the OPA program would
                                                    process 3.2 million streamlined installment
Highlights                                          agreements for Fiscal Years 2007 through 2012.
                                                    However, only 308,246 taxpayers (10 percent of
Final Report issued on                              the goal) used the OPA program to establish
September 27, 2013                                  their installment agreements during this period.
                                                    The IRS did not establish a process to measure
Highlights of Reference Number: 2013-30-121         program results against the OPA program goals.
to the Internal Revenue Service Commissioner        IRS managers and employees associated with
for the Small Business/Self-Employed Division.      the OPA program were unaware of the OPA
IMPACT ON TAXPAYERS                                 program goals. Management could do more to
                                                    promote the program and identify and remove
The Online Payment Agreement (OPA) program          potential barriers, which could further expand
is an Internet application that allows individual   the use of the program.
taxpayers or their authorized tax representatives
a simple and convenient way to establish            Because the OPA program did not meet the
payment agreements while eliminating the need       IRS’s goals for Fiscal Years 2007 through 2012,
for paper forms, toll-free calls, and personal      the IRS did not reduce taxpayer burden for
interaction with the IRS. However, the OPA          approximately three million taxpayers that the
program has not achieved its goals for              IRS expected would use the program. In
increasing revenue or reducing taxpayer burden      addition, the IRS did not receive potential
and costs. Increased revenue and reduced            revenue of $393 million from the estimated
costs are especially important given the current    470,575 taxpayers who may not have defaulted
economic environment and focus on efficient         on their installment agreements, and projected
Federal Government operations.                      cost savings of $16.4 million were not realized.

WHY TIGTA DID THE AUDIT                             WHAT TIGTA RECOMMENDED
In July 2006, the IRS implemented the OPA web       TIGTA recommended that the IRS begin
application, which is accessible through the        measuring OPA performance results against
IRS's public Internet site, IRS.gov. This audit     program goals, improve promotion efforts, and
was initiated to determine the effectiveness of     perform an evaluation of the OPA and
the OPA program in achieving its goals of           installment agreement programs to identify
reducing taxpayer burden and IRS costs and          barriers and the reasons taxpayers used the
increasing revenue. TIGTA analyzed the IRS’s        methods they did to establish their payment
efforts to achieve its goals, as projected in the   agreements.
Baseline Business Case used to obtain approval      In their response to the report, IRS officials
of the program, but did not validate the IRS’s      agreed with the recommendations and stated
projections.                                        that they began taking steps to implement the
WHAT TIGTA FOUND                                    recommendations.

The OPA program is providing benefits to
taxpayers and the IRS. Taxpayer use of the
OPA program has increased from
18,291 taxpayers in Fiscal Year 2007 to 95,979
in Fiscal Year 2012 (a 425 percent increase). In
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 27, 2013


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Online Payment Agreement Program Benefits
                             Taxpayers and the Internal Revenue Service, but More Could Be Done
                             to Expand Its Use (Audit # 201230014)

 This report presents the results of our review to determine the effectiveness of the Online
 Payment Agreement (OPA) program to achieve its goals to reduce taxpayer burden and Internal
 Revenue Service (IRS) costs. This audit is included in our Fiscal Year 2013 Annual Audit Plan
 and addresses the major management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 IRS officials did not agree with the full amount of the outcome measures because part of the
 functionality of the OPA was eliminated, primarily IRS employee use of the system to process
 installment agreements. However, when the IRS revised its Baseline Business Case to eliminate
 the internal employee use of the system, it left projected revenue increases and cost savings from
 increased taxpayer use of the OPA program unchanged. The outcome measures in this report are
 based on the revised Baseline Business Case and only reflect the IRS’s projected revenue
 increases and cost savings from increased taxpayer use of the OPA program, not IRS employee
 use. As such, we believe the basis for the outcome measures are valid.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Nancy Nakamura, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations).
                                    The Online Payment Agreement Program
                              Benefits Taxpayers and the Internal Revenue Service,
                                   but More Could Be Done to Expand Its Use




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Online Payment Agreement Program Is Benefitting
          Taxpayers and the Internal Revenue Service ................................................ Page 4
          Program Goals Were Not Monitored or Met ................................................ Page 5
                    Recommendation 1:........................................................ Page 10

          Actions Can Be Taken to Expand the Use of the
          Online Payment Agreement Program ........................................................... Page 10
                    Recommendation 2:........................................................ Page 17

                    Recommendation 3:........................................................ Page 18


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 19
          Appendix II – Major Contributors to This Report ........................................ Page 22
          Appendix III – Report Distribution List ....................................................... Page 23
          Appendix IV – Outcome Measures............................................................... Page 24
          Appendix V – Glossary of Terms ................................................................. Page 26
          Appendix VI – Management’s Response to the Draft Report ...................... Page 28
              The Online Payment Agreement Program
        Benefits Taxpayers and the Internal Revenue Service,
             but More Could Be Done to Expand Its Use




                   Abbreviations

DDIA         Direct Debit Installment Agreement
IRS          Internal Revenue Service
OPA          Online Payment Agreement
PIN          Personal Identification Number
SB/SE        Small Business/Self-Employed
TIGTA        Treasury Inspector General for Tax Administration
W&I          Wage and Investment
                               The Online Payment Agreement Program
                         Benefits Taxpayers and the Internal Revenue Service,
                              but More Could Be Done to Expand Its Use




                                           Background

Although the majority of Americans get a tax refund from the Internal Revenue Service (IRS)
each year, there are many taxpayers who owe and some who cannot pay the tax all at once. The
law1 allows taxpayers to make installment payments to the IRS on any Federal tax if such an
arrangement will facilitate collection of the liabilities. Taxpayers are encouraged to pay their
liabilities in full to avoid the costs of an installment agreement,2 which include a user fee, the
accrual of penalties and interest, and the possible filing of a Notice of Federal Tax Lien.
Generally, no levies may be served to the taxpayer as long as the taxpayer remains in compliance
with the terms of the installment agreement. The number
of taxpayers who established installment agreements has
increased from three million in Fiscal Year 2007 to              The Online Payment Agreement
                                                                   program allows the individual
3.3 million (a 10 percent increase) in Fiscal Year 2012.         taxpayer to enter into a payment
In July 2006, the IRS’s Small Business/Self-Employed          agreement while eliminating the
                                                                need for personal interaction
(SB/SE) Division, in partnership with the Wage and                       with the IRS.
Investment (W&I) Division, implemented an Online
Payment Agreement (OPA) web application (or
program) accessible through IRS.gov, the IRS’s public Internet site. The OPA program,3
developed at a cost of $2.9 million, allows individual taxpayers or their authorized tax
representatives to apply for a payment agreement over the Internet. When introduced, the IRS
Commissioner stated that the OPA program would reduce taxpayer burden by providing the
convenience of online service during extended hours and weekends to set up a payment
agreement. The OPA program would also virtually eliminate the need for interaction with a
customer service representative and eliminate most paper processing.
The goals of the OPA program are to:
       Reduce taxpayer burden by providing taxpayers with a simple and convenient way to
        establish a streamlined installment agreement.
       Lower the streamlined installment agreement default rate.
       Ensure more accurate payment postings, decrease lock box volumes, and reduce paper
        handling and mail costs for both payments and notices.



1
  Internal Revenue Code Section 6159.
2
  See Appendix V for a glossary of terms.
3
  The application was known as the Electronic Installment Agreement program until March 2008.
                                                                                                Page 1
                                The Online Payment Agreement Program
                          Benefits Taxpayers and the Internal Revenue Service,
                               but More Could Be Done to Expand Its Use



The IRS projected that over 90 percent of taxpayers who qualify for an installment agreement
will be able to initiate an installment agreement and secure approval via the Internet.
The criteria to use the OPA program follow the streamlined installment agreement4 requirements.
When the OPA was first implemented, the streamlined installment agreement requirement was
an aggregate unpaid assessment balance of $25,000 or less. In January 2012, the SB/SE Division
issued interim guidance that increased the threshold to an aggregate unpaid assessment balance
of $50,000 or less. Taxpayers can use the OPA program to do any of the following:
       Arrange to fully pay their liabilities within 10 days to avoid interest and penalties.
       Apply for a short-term payment agreement for up to 120 days to avoid an installment
        agreement user fee.
       Apply for a streamlined installment agreement for up to 72 months.
The OPA program determines taxpayer eligibility and filing compliance and checks for
excluding account conditions.5 The system verifies that the proposed payment meets the
streamlined installment agreement criteria and provides a financial analysis tool to help
determine a realistic payment amount. Taxpayers are authenticated through the use of their
Social Security Numbers, Individual Taxpayer Identification Numbers, or Personal Identification
Numbers (PIN) using the same shared secrets6 as in the automated telephone system.
The OPA program allows taxpayers to self-qualify and apply for a streamlined installment
agreement, receive notification of the streamlined installment agreement approval, and arrange a
payment schedule during an online “interview” session. Taxpayers are provided a Direct Debit
Installment Agreement (DDIA) option that allows them to electronically pay their streamlined
installment agreements, thereby reducing taxpayer burden, increasing taxpayer satisfaction, and
increasing compliance. The OPA program allows any taxpayer with a bank account and Internet
access to use this feature.
This review was performed at the SB/SE Division Headquarters in New Carrollton, Maryland,
during the period August 2012 through February 2013. The overall objective of this review was
to determine the effectiveness of the OPA program in achieving its goals to reduce taxpayer
burden and IRS costs. We analyzed the IRS’s efforts to achieve its goals as projected in the


4
  A streamlined installment agreement is an installment agreement for taxpayers with an aggregate unpaid balance of
assessments of $50,000 or less that will be fully paid in 72 months. No managerial approval is required for
streamlined installment agreements.
5
  Taxpayers will be excluded from using the OPA program if they have too many outstanding tax modules, have
delinquent returns, have delinquent accounts assigned to the Collection field function, are in bankruptcy or tax
litigation, currently have an offer in compromise, or are involved in a criminal investigation.
6
  Shared secrets include the Social Security Number or Individual Taxpayer Identification Number that appears first
on a taxpayer’s tax return; if filing jointly, the spouse’s Social Security Number or Individual Taxpayer
Identification Number; date of birth; and adjusted gross income from the prior year income tax return.
                                                                                                           Page 2
                            The Online Payment Agreement Program
                      Benefits Taxpayers and the Internal Revenue Service,
                           but More Could Be Done to Expand Its Use



OPA Baseline Business Case used to obtain approval of the program. However, we did not
validate the IRS’s projections. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                            The Online Payment Agreement Program
                      Benefits Taxpayers and the Internal Revenue Service,
                           but More Could Be Done to Expand Its Use




                                 Results of Review

The Online Payment Agreement Program Is Benefitting Taxpayers and
the Internal Revenue Service
Since inception of the OPA program, the number of taxpayers using it to request installment
agreements has increased significantly. OPA program streamlined installment agreements have
increased 425 percent—from 18,291 in Fiscal Year 2007 to 95,979 in Fiscal Year 2012. The
IRS needs to continue its efforts to expand use of the OPA program because it provides
numerous benefits and advantages to both taxpayers and the IRS.

Lower default rate
The OPA Baseline Business Case projected that the number of DDIAs would increase under the
OPA program and that OPA program agreements would have a lower default rate. For Fiscal
Years 2007 through 2012, the installment agreement default rate under the OPA program has
averaged 10 percent, compared to 18 percent for all other individual streamlined installment
agreements.

Higher percentage of DDIAs
In Fiscal Year 2012, 46 percent of the installment agreements obtained through the OPA
program were DDIAs, compared with just 9 percent for all other individual taxpayer streamlined
installment agreements. The number of DDIAs processed by the OPA program is a significant
factor for the lower default rate on installment agreements under that program. The OPA
Baseline Business Case projected that the number of DDIAs would increase under the OPA
program.
The OPA program encourages the DDIA with a lower user fee while the taxpayer is in the
process of requesting the installment agreement. DDIAs help taxpayers stay in compliance with
their installment agreements, reduce late payment penalties and additional interest, and lower
payment processing costs and error rates.

Higher percentage of full payments
The OPA Baseline Business Case projected that the increase in the number of DDIAs established
under the OPA program would result in a lower installment agreement default rate and thereby
increase the number of taxpayers who fully pay their liabilities. The effect of a lower default rate
and a higher percentage of DDIAs established under the OPA program for Fiscal Years 2007
through 2010 has been a higher number of full payments. Approximately 9 percent more OPA

                                                                                             Page 4
                            The Online Payment Agreement Program
                      Benefits Taxpayers and the Internal Revenue Service,
                           but More Could Be Done to Expand Its Use



taxpayers fully paid their liabilities compared with all other individual taxpayer streamlined
installment agreements.

High rate of customer satisfaction
According to an online IRS survey, 93 percent of taxpayers who used the OPA program to
establish a payment agreement in Fiscal Year 2012 were satisfied or somewhat satisfied with the
program.

Program Goals Were Not Monitored or Met
Despite the growth in popularity of the OPA program since it was introduced in July 2006,
the majority of taxpayers continue to establish their installment agreements by submitting
Form 9465, Installment Agreement Request, or by calling the IRS toll-free telephone number.
Only 3 percent of the 2.9 million streamlined installment agreements established during
Fiscal Year 2012 were processed by the OPA program.
The OPA program has not achieved its goals or the cost savings outlined in the OPA Baseline
Business Case used to support the program’s implementation. The OPA Baseline Business Case
projected that 480,000 installment agreements (20 percent of the eligible individual taxpayers
requesting streamlined installment agreements) would be processed by the OPA program in
Fiscal Year 2007. The number of taxpayers using the OPA program was projected to increase by
5 percent per fiscal year. The Baseline Business Case stated, “This growth projection seems
modest when compared to the actual growth of Internet usage in the United States.” However,
growth was expected only through Fiscal Year 2011. The Baseline Business Case projected the
number of installment agreements processed by the OPA program would remain constant (at
583,443) in Fiscal Years 2011 and beyond.
Despite the modest annual growth, the OPA program has significantly underperformed and is not
meeting usage goals. The OPA Baseline Business Case projected that the OPA program would
process 583,443 streamlined installment agreements in Fiscal Year 2012. However, it processed
only 95,979 streamlined installment agreements in Fiscal Year 2012, which is only 16 percent of
the Fiscal Year 2012 goal. The OPA program would have had to process more than six times as
many installment agreements as it did in Fiscal Year 2012 to meet its goal. Figure 1 shows that
between Fiscal Years 2007 and 2012, the OPA program has come significantly short of its
annual goals.




                                                                                             Page 5
                             The Online Payment Agreement Program
                       Benefits Taxpayers and the Internal Revenue Service,
                            but More Could Be Done to Expand Its Use



            Figure 1: OPA Individual Master File Streamlined Installment
            Agreement Goals Compared to Actual OPA Program Results




      Source: TIGTA analysis of the OPA Baseline Business Case and Collection Activity Reports
      (N-5000-6) for Fiscal Years 2007 through 2012.

IRS managers and employees associated with the OPA program informed us that they were
unaware of the OPA Baseline Business Case goals and, therefore, were not aware that the
OPA program was not achieving the established goals.
Internal Revenue Manual and Government Accountability Office guidance require the
establishment of performance measures to assist in determining how well a process is working
compared to past performance. Goals should be used to tie the performance measures to the
improvement of a particular product or process. Performance measures should be used as a
feedback loop for continuously improving new processes.
The OPA program Baseline Business Case included projected goals for the number of taxpayers
expected to use the OPA program and the cost savings it would achieve beginning with Fiscal
Year 2007. However, SB/SE Division managers did not establish a process to measure the
OPA program results against these goals and projected cost savings to effectively determine how
well the program is performing.
Additionally, since November 2008, the IRS has not performed any studies or evaluations of the
OPA program or the installment agreement program to determine the reasons why taxpayers and
tax practitioners chose to use the OPA program, submit a Form 9465, or use the IRS toll-free
number system to establish an installment agreement. Without a process in place to measure the
OPA program’s performance against the anticipated results, managers do not have complete
information to make decisions about changes needed to improve the OPA program to increase
performance.


                                                                                                 Page 6
                                 The Online Payment Agreement Program
                           Benefits Taxpayers and the Internal Revenue Service,
                                but More Could Be Done to Expand Its Use



The IRS has not significantly reduced taxpayer burden or realized monetary goals
In addition to increasing the number of installment agreements established through the OPA
program, the OPA program Baseline Business Case included additional goals to:
          Reduce taxpayer burden.
          Increase revenue.
          Reduce IRS costs.
Taxpayers who took advantage of the OPA program to establish installment agreements realized
some benefits. The Federal Government also benefited when taxpayers used the OPA program.
However, these goals, which were dependent on the number of streamlined installment
agreements established using the OPA program, were not fully met.

Taxpayer burden reduction goals have not been achieved
One of the OPA program goals was to reduce taxpayer burden by providing taxpayers with an
online tool to establish an installment agreement that would:
          Determine a realistic payment amount.
          Save taxpayers time.
          Reduce taxpayer frustration.
          Avoid personal interaction with the IRS.
          Allow taxpayers to self-qualify.
          Provide notification of the installment agreement approval.
Taxpayers using the OPA program might also experience a reduction in late payment penalties
and interest charges caused by mail delays.
The Baseline Business Case projected that the OPA program would process approximately
3.2 million7 streamlined installment agreements in Fiscal Years 2007 through 2012. However,
only 308,246 individual taxpayers used the OPA program to establish their installment
agreements during this period. As such, the OPA program goal to reduce taxpayer burden was
not achieved for the estimated three million taxpayers that the IRS expected would use the
program. These taxpayers did not establish their installment agreements using the OPA program
but instead either mailed a Form 9465 or called the IRS toll-free telephone number to establish
the installment agreements.



7
    Rounded from the 3,235,746 OPA goal total in Figure 1.
                                                                                        Page 7
                              The Online Payment Agreement Program
                        Benefits Taxpayers and the Internal Revenue Service,
                             but More Could Be Done to Expand Its Use



Increased revenue goals from fewer installment agreement defaults have not
been realized
The Baseline Business Case projected that the OPA program would result in more taxpayers
using the DDIA option and would therefore reduce the number of installment agreement
defaults. A larger percentage of taxpayers establishing their installment agreements through the
OPA program use the direct debit or payroll deduction options to make their payments compared
with installment agreements established using Form 9465 or the IRS toll-free number system.
As a result, fewer taxpayers defaulted. Specifically, from Fiscal Years 2007 through 2012, the
installment agreement default rate under the OPA program averaged 10 percent compared to
18 percent for all other individual streamlined installment agreements. This means more revenue
is collected. Figure 2 shows the potential revenue impact of fewer defaulted installment
agreements in Fiscal Years 2007 through 2012 if goals had been met.
                 Figure 2: OPA Program Potential Revenue Increases
              From Fewer Defaulted Streamlined Installment Agreements

                                                        Fiscal Year
                                 2007      2008      2009      2010       2011       2012         Total

  Individual Default                                                                              18%
                                 19%       22%       17%       18%        17%         17%
  Percentage                                                                                    average
                                                                                                  10%
  OPA Default Percentage         4%        13%        9%       13%        12%         9%
                                                                                                average

  Potential Fewer Defaults      86,355    62,327    94,687    59,783     45,187     122,236      470,575

  Potential Increased
                                 $40       $59        $75       $74        $76        $69         $393
  Revenue (millions)
 Source: TIGTA analysis of the OPA Baseline Business Case and Collection Activity Reports (N-5000-6) for
 Fiscal Years 2007 through 2012.

Based on OPA program default rates and IRS projections in the Baseline Business Case, if the
OPA program had met its intended goals for Fiscal Years 2007 through 2012, 470,575 fewer
taxpayers would have potentially defaulted on their installment agreements. Achieving this goal
would have resulted in an estimated potential $393 million in increased revenue.

Cost savings goals have not been achieved
The OPA Baseline Business Case projected that the OPA program would achieve savings of
$18.2 million from mail, reminder notice, and lock box costs for Fiscal Years 2007 through
2012. However, as Figure 3 illustrates, the IRS realized an estimated total cost savings benefit of
only $1,822,596 (10 percent of projected savings) as of Fiscal Year 2012.


                                                                                                      Page 8
                                The Online Payment Agreement Program
                          Benefits Taxpayers and the Internal Revenue Service,
                               but More Could Be Done to Expand Its Use



                Figure 3: OPA Program Projected Cost Savings Compared to
                   Estimated OPA Program Cost Savings8 (in thousands)

                                                      Fiscal Year
                         2007          2008         2009         2010          2011         2012          Total

    Projected
                        $1,737        $2,604       $3,473       $3,473       $3,473        $3,473       $18,233
    Savings
    Realized
                          $66          $140         $352         $398         $295          $571         $1,823
    Savings
    Estimated
                        $1,671        $2,464       $3,121       $3,075       $3,178        $2,902       $16,410
    Savings Lost
    Maintenance &
                         $828          $828         $828         $828         $828          $828         $4,968
    Operation Costs
Source: TIGTA analysis of the OPA Baseline Business Case and Collection Activity Reports (N-5000-6) for
Fiscal Years 2007 through 2012.

Because the OPA program has not realized the usage goals projected for Fiscal Years 2007
through 2012, the IRS did not achieve potential savings of approximately $16.4 million in mail,
reminder notice, and lock box costs. In addition to the initial OPA program development cost of
$2.9 million, the IRS paid almost $5 million in Fiscal Years 2007 through 2012 to maintain and
operate the OPA program.9 Consequently, it has cost the IRS far more to operate the program
than it has realized in cost savings.
IRS management informed us that they were unaware that the OPA program was not meeting
expectations and, therefore, they had not taken sufficient steps towards achieving program goals.
Considering the significant differences between the expected benefits of the OPA program and
the actual results, the importance of monitoring progress towards achieving goals is clear.
      Management Action: During our review, the IRS initiated plans to release a new version
      of the OPA program in Fiscal Year 2014. The new release will improve the usability of the
      application by reducing the amount of data collected and the time the taxpayer needs to
      complete an installment agreement.




8
  Excludes Fiscal Year 2006 projected savings of $359,000 because no data were available to identify the actual
streamlined installment agreements processed by the OPA program when implemented in July 2006.
9
  The IRS could not provide actual OPA program maintenance and operation costs, so we used the amounts
projected in the OPA program Information Technology Transition to Support plan.
                                                                                                            Page 9
                            The Online Payment Agreement Program
                      Benefits Taxpayers and the Internal Revenue Service,
                           but More Could Be Done to Expand Its Use



Recommendation
Recommendation 1: The Office of the Deputy Commissioner for Services and Enforcement
should begin measuring OPA program performance results against OPA program goals and
manage the program to achieve those goals.

       Management’s Response: IRS management agreed with this recommendation.
       They have initiated a comprehensive review of the installment agreement program,
       including the OPA program. The review will include an analysis of the projections and
       assumptions used in the Baseline Business Case, the OPA system, and taxpayer behavior.
       Based on the results of the review, OPA program goals will be reassessed for use in
       measuring and managing the program.

Actions Can Be Taken to Expand the Use of the Online Payment
Agreement Program
Management can employ additional strategies to help increase taxpayer and tax practitioner
awareness and simplify the application process.

OPA program promotion and outreach efforts can be refined to increase
awareness of the program
The IRS has promoted the OPA program through various means:
      IRS.gov postings of updated tax topics, tax news, and tips relating to payment of taxes.
      Videos accessible on IRS.gov and on YouTube.
      Postings on Twitter with direct links to the OPA application.
      Presentations at the 2012 IRS Nationwide Tax Forum.
Additionally, in September 2012 the IRS hosted a webinar on payment alternatives that included
information on the OPA program. The webinar’s target audience was tax practitioners, and
5,400 participated. Finally, the IRS successfully worked to have a web link to the OPA program
added to a commercial tax preparation software application.
Despite these efforts, the IRS has not been able to significantly increase OPA program use or
achieve its goals. The results from a Fiscal Year 2012 W&I Division Taxpayer Experience
Survey showed that only 18 percent of the respondents were aware of the OPA program. The
results also indicated that 61 percent of the respondents would be somewhat or very unlikely to
set up a payment plan through the IRS.gov website.



                                                                                         Page 10
                                The Online Payment Agreement Program
                          Benefits Taxpayers and the Internal Revenue Service,
                               but More Could Be Done to Expand Its Use



Promotion efforts mostly target tax practitioners and not individual taxpayers
Only 1 percent of the installment agreements established though the OPA program were from tax
practitioners, but the IRS has historically focused its promotion efforts on the tax practitioner.
The IRS needs to promote the program to both tax practitioners and individual taxpayers. The
current OPA program marketing efforts include initiatives to increase OPA promotions with the
individual taxpayers.
We met with a group of tax practitioners10 to determine if they were aware of the OPA program
and if any of the IRS’s promotional efforts had reached them. The tax practitioners advised us
that they had not seen promotions of the OPA program. Although they were aware of the
program, what they knew about it came from coworkers and not from IRS promotions. The
practitioners suggested that the IRS promote the program through tax practitioner professional
trade publications.

IRS balance due notices, tax forms, and instructions do not sufficiently promote
the OPA program
Balance due notices advise taxpayers who owe taxes about what they can do if they cannot pay
the amount owed. Figure 4 provides an excerpt from the CP 501, IMF 1st Notice - Balance Due.
                                      Figure 4: Excerpt of CP 501




Source: IRS Notice Gatekeeper.


10
  The practitioners may not be representative of the tax practitioner community overall. Additionally, we did not
address the corporate policies that may dictate how IRS promotion material is disseminated to the practitioners.
                                                                                                          Page 11
                               The Online Payment Agreement Program
                         Benefits Taxpayers and the Internal Revenue Service,
                              but More Could Be Done to Expand Its Use



The notice does not specifically mention the OPA program or the OPA website, nor does it
emphasize the benefits or the OPA program qualifications. Also, the notice informs taxpayers
that they can save money by applying online, but it does not disclose the installment agreement
user fees, which are the same regardless of how the installment agreement is established. During
our review, the IRS informed us that it is planning to review the balance due notices and add
references to the OPA program.
TIGTA previously reported11 that during Fiscal Year 2010 the IRS sent approximately
21.9 million balance due notices to individuals to try to collect approximately $67.9 billion. The
notices resulted in obtaining installment agreements with 3.2 million taxpayers. The volume of
notices that are issued and the message they deliver can have a significant impact on how the
taxpayer responds.
Furthermore, the December 2011 version of Form 9465 did not include any information that
encouraged the taxpayer to go to the OPA website instead of submitting Form 946512 to establish
an installment agreement. During our review, Form 9465 was revised and now includes a tip for
the taxpayer to go online to complete the installment agreement.

The direct link to the OPA program is no longer available on the IRS.gov home
page
IRS.gov was updated in August 2012, and the home page no longer has a link directly to the
OPA web page. However, as of November 12, 2012, an older You Tube video still advised the
taxpayer to look for the OPA link on the IRS.gov home page. As of May 22, 2013, there was
still not a specific link to the OPA program from the IRS.gov home page. The OPA program
option can only be accessed after clicking on the “more…” link under the Tools banner on the
IRS.gov home page. During our review, the IRS removed the older YouTube video and
developed a new OPA video for YouTube that was posted April 3, 2013. The new video advises
the taxpayer on how to reach the OPA program from the IRS.gov home page.

The use of YouTube and Twitter was not effective
The volume of YouTube views of the IRS videos and followers of the IRS Twitter feeds are too
low to generate any significant changes in OPA program usage volumes. Figure 5 shows that as
of November 20, 2012, an OPA program video that posted in November 2010 had only
3,835 views.




11
   TIGTA, Ref. No. 2011-30-112, Reducing the Processing Time Between Balance Due Notices Could Increase
Collections (Sept. 2011).
12
   While the form did not mention OPA, the December 2011 Form 9465 instructions did include a statement that
“instead of filing Form 9465, you can apply online for a payment agreement.”
                                                                                                       Page 12
                            The Online Payment Agreement Program
                      Benefits Taxpayers and the Internal Revenue Service,
                           but More Could Be Done to Expand Its Use



                               Figure 5: OPA YouTube video




                       Source: IRS videos on YouTube as of November 20, 2012.

In addition, as of June 2012, IRS Twitter postings or “tweets” on the OPA program had just
nine “re-tweets” and were tagged as a favorite by only three individuals.
During our review, the IRS posted a new OPA video to YouTube. As of July 11, 2013, the OPA
program video had over 4,500 views.

The IRS tax topics and tips do not emphasize or promote the OPA program
IRS tax topics and tips researchable through the IRS.gov website provide taxpayers with a wide
range of tax information including assistance with the filing of their tax returns, responding to
IRS notices, and tax payment options. As of August 2012, the IRS tax topics and tips only
mention the OPA program information within the narrative and do not promote the benefits of
the OPA program. In Fiscal Year 2013, additional tax tips were issued that again refer to the
OPA program as an option to pay taxes, but do not emphasize or promote the benefits of the
program. However, the current tax tips now include links to the new OPA video on You Tube.

User fees were not reduced for OPA program taxpayers
Taxpayers were not offered cost incentives to establish their streamline installment agreements
using the OPA program. The fees for setting up a streamlined installment agreement via the
OPA program are the same as manually processed installment agreements (between $52 and
$105, depending on the payment method).



                                                                                          Page 13
                            The Online Payment Agreement Program
                      Benefits Taxpayers and the Internal Revenue Service,
                           but More Could Be Done to Expand Its Use



Since the IRS uses fewer resources to process online installment agreements, a lower user fee
could be offered to taxpayers as an incentive to use the OPA program. The IRS has previously
considered reducing the fees for OPA users. However, the Office of Management and Budget
must approve any changes to this fee.
   Management Action: During our review, IRS management informed us that they plan to
   submit a proposal to the Office of Management and Budget for a lower user fee for the OPA
   program as an incentive for taxpayers to use the program.

A strategic communication plan had not been developed
In November 2008, the IRS conducted a post-implementation review of the OPA program. The
post-implementation review report concluded that the OPA program had not achieved the
projected numbers outlined in the Baseline Business Case. Specifically, the post-implementation
review found that:
      The inability to attract the number of taxpayer users as outlined in the business case had
       kept the program from achieving the savings anticipated.
      Under-performance was likely caused by marketing the application to the practitioner
       community more strongly than to the general public.
      Increasing the use of the online application versus other installment agreement options
       was dependent upon the IRS’s ability to market the application both internally and
       externally.
      The development of a viable and dynamic marketing plan is crucial to the program
       fulfilling its original design of completing 90 percent of all individual taxpayer
       streamlined installment agreements through the OPA program.
Following the issuance of the post-implementation review report, the IRS developed a Fiscal
Year 2010 Communication Plan to increase taxpayer awareness and OPA visibility. The plan
included actions that the IRS should perform and document both internal and external to the
organization. However, the plan does not indicate whether or not most of those actions have
been completed.
During our review, the SB/SE Division prepared an informal marketing plan that outlined current
and future marketing initiatives. The marketing plan identified the specific initiatives, the status,
the stakeholders, and the official responsible for completing the initiative. The marketing
initiatives included:
      Revising the balance due notices.
      Adding OPA program links to tax practitioner publications and websites.



                                                                                            Page 14
                            The Online Payment Agreement Program
                      Benefits Taxpayers and the Internal Revenue Service,
                           but More Could Be Done to Expand Its Use



      Reviewing the Volunteer Program training material regarding how the OPA program is
       being emphasized.
      Updating the IRS.gov keyword search application to ensure that results include a link to
       the OPA program payment when “tax payment options” is entered.
However, the SB/SE Division marketing plan for the OPA program was not a strategic
communication plan. It was an informal spreadsheet without important details that are required
in strategic communication plans, such as:
      SB/SE Division and/or IRS-wide strategy that the communication strategy supports.
      Identified business and communication objectives.
      Target audience(s).
      Key messages for each audience.
      Environmental scan to determine conditions that might help or hinder communications.
      Communication strategy that will be employed.
      Tactical section that identifies communication products, vehicles, and responsible
       persons.
Considering the magnitude of the program, the potential for significant benefits to taxpayers and
the IRS, and the fact that the IRS did not track its prior promotional efforts, it is important that
the SB/SE Division develop and employ a strategic communication plan to make the OPA
program the preferred method of initiating installment agreements.
   Management Action: After we presented our findings to the IRS, the SB/SE Division
   Communications function developed an OPA program strategic communication plan for
   Fiscal Year 2013 entitled Marketing the IRS.gov Online Payment Agreement Application
   (dated March 5, 2013). The objective of the OPA program strategic communication plan is
   to increase awareness and use of the OPA program. The plan includes external and internal
   marketing efforts to increase the overall awareness of the OPA program, how to access the
   program, and the benefits of the program.

Program barriers can be reduced or eliminated
Even when taxpayers and tax practitioners become aware of the OPA program, they may
encounter barriers to the successful completion of streamlined installment agreements. Our
review identified several barriers that may affect taxpayer and tax practitioner decisions to use
the OPA program.



                                                                                            Page 15
                            The Online Payment Agreement Program
                      Benefits Taxpayers and the Internal Revenue Service,
                           but More Could Be Done to Expand Its Use



PINs are not recoverable online
When accessing the OPA program, taxpayers are asked to enter a PIN before proceeding. If
taxpayers have not previously created a PIN, they can do so immediately and continue through
the OPA program. However, if a taxpayer has forgotten his or her PIN, the OPA program does
not allow the taxpayer to recover it online. Figure 6 shows that if a taxpayer has forgotten his or
her PIN, he or she must call the IRS toll-free number listed on the notice to delete the old PIN
before creating a new one to use for the OPA program. When the taxpayer calls the toll-free
number, the first option given is for establishing an installment agreement. Of the seven options
available to the taxpayer, changing the PIN is the sixth option. Taxpayers calling to change their
PIN may choose to establish the streamlined installment agreement on the phone rather than
returning to the OPA program before they even hear the choice for changing their PIN.
        Figure 6: OPA Program Forgotten PIN Page on the IRS OPA Website




 Source: IRS OPA website.

Since the OPA program was established, the number of taxpayers establishing streamlined
installment agreements using the toll-free number system has increased by 8.7 percent (from
Fiscal Year 2007 to Fiscal Year 2012). While our review did not include an in-depth analysis of
streamlined installment agreements established using the toll-free number system, it is possible
that taxpayers calling to recover their PIN for the OPA program may be choosing to establish
streamlined installment agreements instead. If taxpayers were not forced to leave the OPA
program to recover their PIN, they would be more likely to complete their streamlined
installment agreement online.

                                                                                           Page 16
                           The Online Payment Agreement Program
                     Benefits Taxpayers and the Internal Revenue Service,
                          but More Could Be Done to Expand Its Use



Business taxpayers are prohibited from using the OPA program
Business taxpayers cannot use the OPA program to establish payment agreements. Allowing
business taxpayers to use the OPA program could significantly increase the volume of payment
agreements processed by the OPA program.
   Management Action: Prior to our review, the IRS initiated plans to allow business
   taxpayers to use the OPA program beginning in Fiscal Year 2014.
Because the promotion efforts to date have been ineffective and barriers have not been
addressed, many taxpayers and tax practitioners are still unaware of the OPA program as an
effective tool to establish their payment agreements.
Based on the IRS’s projections for taxpayer use of the OPA program during Fiscal Year 2013:
      Taxpayer burden could potentially have been reduced for 471,926 additional taxpayers.
      Revenue could have been increased by $67.3 million from fewer defaulted agreements.
      Cost savings of $2.8 million could have been realized by reducing mail, reminder notice,
       and lock box expenses.
The IRS should take actions to increase taxpayer awareness and reduce OPA program barriers so
that it can make progress towards achieving the goals it established when the OPA program was
implemented.

Recommendations
The Office of the Deputy Commissioner for Services and Enforcement should:
Recommendation 2: Continue to improve promotional efforts to increase awareness of the
OPA program, including consideration in the following areas:
      Ensure that promotional efforts are balanced and target both tax practitioners and
       individual taxpayers and that the message being delivered is consistent.
      Promote the OPA program within tax practitioner professional publications.
      Update balance due notices to prominently promote the OPA program and its benefits
       and qualifications to taxpayers.
      Request that the Office of Management and Budget approve a reduction to the
       installment agreement user fees for taxpayers who use the OPA program to establish a
       payment agreement.




                                                                                            Page 17
                          The Online Payment Agreement Program
                    Benefits Taxpayers and the Internal Revenue Service,
                         but More Could Be Done to Expand Its Use



      Management’s Response: IRS management agreed with this recommendation
      and will consider these and other promotional efforts in the development of the Fiscal
      Year 2014 Strategic Communication Plan for the OPA program.
Recommendation 3: Perform an evaluation of installment agreement programs, including the
OPA program, to identify barriers to using the OPA program and determine the reasons
taxpayers used the methods they did to establish their payment agreements.
      Management’s Response: IRS management agreed with this recommendation.
      They have initiated a comprehensive review of the installment agreement program,
      including the OPA program, to identify barriers to using the OPA process and the reasons
      taxpayers choose to use one method over another. Based on the results of the review,
      appropriate changes to the programs will be initiated.
      IRS management did not agree with the full amount of the outcome measures. They
      believe TIGTA’s use of the IRS’s Baseline Business Case projections inflates potential
      increased revenue and savings because the functionality for IRS employees to use the
      OPA program was eliminated prior to the system being implemented in October 2007.
      Office of Audit Comment: We based our outcomes on the reduced functionality of
      the OPA program as presented in the IRS’s revised 2008 Baseline Business Case, not the
      original one from 2005 that was based on the anticipated full functionality of the system.
      As such, we believe the basis for our outcomes are valid and in line with the IRS’s
      projected revenue and savings increases from increased taxpayer use of the OPA
      program. The original Baseline Business Case projections included benefits associated
      with both IRS employee access to the OPA (cost savings from the reduction of
      employees’ time to process installment agreements) as well as increased taxpayer use of
      the system (cost savings and increased revenue from lower default rates). When
      management made the decision to eliminate employee access to the system, it revised the
      Baseline Business Case to eliminate the internal use of the OPA. No changes were made
      to the benefits associated with increased revenue from lower default rates because the
      elimination of IRS employee access to the OPA would not affect taxpayers who establish
      their installment agreements without IRS employee involvement.




                                                                                        Page 18
                                  The Online Payment Agreement Program
                            Benefits Taxpayers and the Internal Revenue Service,
                                 but More Could Be Done to Expand Its Use



                                                                                    Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the effectiveness of the OPA program in
achieving its goals to reduce taxpayer burden and IRS costs. To accomplish this objective we:
I.         Determined whether the OPA program is operating as planned and is achieving the
           intended goals.
           A. Reviewed related Internal Revenue Manual sections and the OPA program
              documentation to identify the OPA program eligibility requirements.
           B. Reviewed the November 2008 post-implementation review results.
           C. Reviewed the revised OPA program Baseline Business Case1 used to justify the
              reason for developing and implementing the project and identified the OPA program
              goals, the projected cost savings benefits, and the OPA program development and
              operation costs.
           D. Reviewed the Collection Activity Reports (N-5000-6) for Fiscal Years 2007 through
              2012 and identified:
               1. The number of Individual Master File streamlined installment agreements
                  received.
               2. The number of installment agreements processed by the OPA program.
               3. The number of individual streamlined installment agreements defaulted and the
                  number of installment agreements that defaulted under the OPA program.
           E. Reviewed streamlined installment agreement data for Fiscal Years 2007 through 2012
              and identified:
               1. The number of streamlined installment agreements processed through the OPA
                  program.
               2. The number of OPA streamlined installment agreements that resulted in full
                  payment or account delinquencies compared to the total Individual Master File
                  streamlined installment agreements.
           F. Compared the OPA program installment agreement results for Fiscal Years 2007
              through 2102 to the latest OPA program Baseline Business Case goals, including the

1
    See Appendix V for a glossary of terms.
                                                                                            Page 19
                            The Online Payment Agreement Program
                      Benefits Taxpayers and the Internal Revenue Service,
                           but More Could Be Done to Expand Its Use



           volume of installment agreements, the default rates, and the cost and saving benefits
           achieved.
II.    Determined whether the IRS has effectively promoted the OPA program.
       A. Reviewed the promotional material developed to promote the OPA program.
           1. Obtained and reviewed the OPA publicity presented in tax topics, tax news, and
              other Government publications.
           2. Obtained and reviewed documentation used to present the OPA program at the
              2012 IRS Nationwide Tax Forums.
           3. Reviewed the YouTube and the IRS.gov videos promoting the OPA program.
           4. Reviewed the IRS Twitter feeds promoting the OPA program.
       B. Reviewed the IRS.gov website to determine how accessible the OPA program is to
          taxpayers.
       C. Listened to the verbal messages from the IRS toll-free number and determined
          whether OPA program information was provided.
       D. Reviewed IRS Collection notices, Form 9465, Installment Agreement Request, and
          the associated instructions and determined whether they provided taxpayers with
          information regarding the OPA program.
       E. Reviewed OPA program taxpayer surveys and determined whether taxpayers were
          satisfied with using the OPA program.
       F. Discussed with the IRS any studies or evaluations performed to assess the success or
          effectiveness of the OPA program.
       G. Reviewed various tax preparation software and determined whether the software
          included referrals to the OPA program.
Validity and reliability of data from computer-based systems
We requested and obtained streamlined installment agreement data processed by the IRS from
the TIGTA Strategic Data Services staff. We compared a sample of the data received to
information processed and stored in the Individual Master File. We used the tax return
identification number as the control to validate the accuracy of the data matching the tax return
information stored on the Master File and on the Integrated Data Retrieval System. The data
were sufficiently reliable to perform our audit analyses.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for

                                                                                           Page 20
                           The Online Payment Agreement Program
                     Benefits Taxpayers and the Internal Revenue Service,
                          but More Could Be Done to Expand Its Use



planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the SB/SE and W&I Divisions’ policies,
procedures, and practices for documenting the actions taken for the OPA program. We evaluated
these controls by interviewing IRS management and Collection function employees, reviewing
documentation and the IRS website, and evaluating the OPA program web application.




                                                                                      Page 21
                          The Online Payment Agreement Program
                    Benefits Taxpayers and the Internal Revenue Service,
                         but More Could Be Done to Expand Its Use



                                                                            Appendix II

                Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Nancy Nakamura, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Tim Greiner, Acting Director
Glen J. Rhoades, Audit Manager
Michael A. Garcia, Lead Auditor
Richard Viscusi, Senior Auditor
Janis Zuika, Senior Auditor
Brian Hattery, Information Technology Specialist




                                                                                    Page 22
                          The Online Payment Agreement Program
                    Benefits Taxpayers and the Internal Revenue Service,
                         but More Could Be Done to Expand Its Use



                                                                           Appendix III

                         Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Enterprise Collection Strategy, Small Business/Self-Employed Division SE:S:CS
Director, Field Collection, Small Business/Self-Employed Division SE:S:FC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                   Page 23
                            The Online Payment Agreement Program
                      Benefits Taxpayers and the Internal Revenue Service,
                           but More Could Be Done to Expand Its Use



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Taxpayer Burden – Potential; 471,926 additional taxpayers affected; 2.2 million taxpayers
    over the next five years (see page 10).

Methodology Used to Measure the Reported Benefit:
The OPA Baseline Business Case projected that in Fiscal Year 2013, 583,443 taxpayers would
use the OPA program to establish a streamlined installment agreement (2,917,215 taxpayers in
Fiscal Years 2013 through 2017) based on the OPA projections for Fiscal Year 2011 and beyond.
However, only 95,979 individual streamlined installment agreements were processed by the
OPA program in Fiscal Year 2012 (16 percent of the Baseline Business Case goal). Actual OPA
program results for Fiscal Years 2007 through 2012 show that the OPA program volume
increased an average of 15,538 taxpayers per year. Applying this average growth volume, we
estimate that 111,517 taxpayers would have actually used the OPA program in Fiscal Year 2013
(712,959 taxpayers for Fiscal Years 2013 through 2017). If the IRS manages the OPA program
sufficiently to meet its Fiscal Year 2013 goal, 471,926 (583,443 – 111,517) additional taxpayers
will potentially have their tax burden reduced when they use the OPA program to establish their
payment agreement, or 2,204,256 (2,917,215 – 712,959) additional taxpayers over the next
five years.

Type and Value of Outcome Measure:
   Increased Revenue – Potential; $67.3 million in increased revenue; $314.2 million over the
    next five years (see page 10).

Methodology Used to Measure the Reported Benefit:
In conjunction with the projected increase of taxpayers expected to use the OPA program to
establish their installment agreements as described in the methodology above, the IRS
anticipated fewer defaulted installment agreements, resulting in increases to revenue. The OPA
Baseline Business Case projected that in Fiscal Year 2013, revenue would increase by
$83,160,000 from fewer OPA installment agreement defaults by processing 583,443 OPA

                                                                                          Page 24
                            The Online Payment Agreement Program
                      Benefits Taxpayers and the Internal Revenue Service,
                           but More Could Be Done to Expand Its Use



individual streamlined installment agreements. As described above, based on these average
growth estimates, the IRS would have processed only an estimated 111,517 OPA individual
streamlined installment agreements in Fiscal Year 2013. Therefore, we estimate that if the OPA
program meets its projected Fiscal Year 2013 goal, revenue would potentially increase by
approximately $67.3 million [$83,160,000 – (111,517 / 583,443 x $83,160,000]; $314.2 million
over the next five years. Yearly revenue increases could potentially be: $67.3 million in Fiscal
Year 2013, $65.1 million in Fiscal Year 2014, $62.8 million in Fiscal Year 2015, $60.6 million
in Fiscal Year 2016, and $58.4 million in Fiscal Year 2017.

Type and Value of Outcome Measure:
   Cost Savings – Funds Put to Better Use – Potential; $2,809,187 in cost savings; $13.1 million
    over the next five years (see page 10).

Methodology Used to Measure the Reported Benefit:
As described in the methodology above, based on these average growth estimates and if the OPA
program meets its Fiscal Year 2013 projections, the IRS will realize a total cost savings benefit
of $663,813 ($4,243,956 for Fiscal Years 2013 through 2017). If the IRS manages the OPA
program sufficiently to meet its Fiscal Year 2013 goal, the IRS could potentially realize
additional savings of $2,809,187 from mail, reminder notice, and lock box costs, or $13,121,044
over the next five years. Yearly savings could potentially be: $2.8 million in Fiscal Year 2013,
$2.7 million in Fiscal Year 2014, $2.6 million in Fiscal Year 2015, $2.5 million in Fiscal
Year 2016, and $2.4 million in Fiscal Year 2017.




                                                                                         Page 25
                               The Online Payment Agreement Program
                         Benefits Taxpayers and the Internal Revenue Service,
                              but More Could Be Done to Expand Its Use



                                                                                          Appendix V

                                    Glossary of Terms

              Term                                                Definition
Baseline Business Case              A Baseline Business Case documents the business case for
                                    proceeding with a project beyond design and development and is
                                    intended to justify the need for and the benefits of a project to the
                                    investment decision makers.
Business Master File                The IRS database that consists of Federal tax-related transactions
                                    and accounts for businesses. These include employment taxes,
                                    income taxes on businesses, and excise taxes.
Collection Activity Report 5000-6   Collection Activity Report, NO-5000 – Installment Agreement
                                    Cumulative Report. This report provides Collection activity
                                    information from the beginning of the fiscal year through the end of
                                    the current reporting month.
Direct Debit Installment            A system that provides a means by which funds are automatically
Agreement                           debited from a taxpayer’s checking account for the agreed-upon
                                    installment amount.
Fiscal Year                         A 12-consecutive-month period ending on the last day of any month.
                                    The Federal Government’s fiscal year begins on October 1 and ends
                                    on September 30.
Individual Master File              The IRS database that maintains transactions or records of individual
                                    tax accounts.
Installment Agreements              Arrangements by which the IRS allows taxpayers to fully pay
                                    liabilities over time in smaller, more manageable payments.
Integrated Data Retrieval System    An IRS computer system capable of retrieving or updating stored
                                    information; it works in conjunction with a taxpayer’s account
                                    records.
Lock Box Depository System          Is comprised of the branch offices of commercial banks that are
(Lock Box)                          under contract with the Federal Management Service to process
                                    individual income tax payments and the various employer-related tax
                                    payments for the IRS.




                                                                                                   Page 26
                                The Online Payment Agreement Program
                          Benefits Taxpayers and the Internal Revenue Service,
                               but More Could Be Done to Expand Its Use



             Term                                                Definition
Office of Management and           Assists the President in overseeing the preparation of the Federal
Budget                             budget and supervising its administration in Executive Branch
                                   agencies. In helping to formulate the President’s spending plans, it
                                   evaluates the effectiveness of agency programs, policies, and
                                   procedures; assesses competing funding demands among agencies;
                                   and sets funding priorities. It also ensures that agency reports, rules,
                                   testimony, and proposed legislation are consistent with the
                                   President’s budget and with Administration policies.
Online Payment Agreement           An Internet application available through the World Wide Web,
                                   accessible from the IRS.gov home page, that allows taxpayers or
                                   their authorized representatives to self-qualify, apply for an
                                   installment agreement, and receive immediate notification of
                                   approval.
Streamlined Installment            An installment agreement for taxpayers with an aggregate unpaid
Agreement                          balance of assessments of $50,000 or less that will be fully paid in
                                   72 months. No managerial approval is required for streamlined
                                   installment agreements.
Tax Talk Today                     An online series of programs provided by the IRS and designed to
                                   educate all tax practitioners. Programs cover ethics, Federal tax law,
                                   and Federal tax law updates.
Tax Module (or Period)             Refers to each tax return filed by the taxpayer for a specific period
                                   (year or quarter).
Taxpayer Burden                    The time or money expended by taxpayers to fulfill their
                                   prefiling, filing, and post-filing U.S. Federal tax payment, reporting,
                                   and filing responsibilities.
Twitter                            A social networking website that allows a user to share short
                                   messages or “tweets” that are visible to other users and can only be
                                   140 characters or less in length.
Volunteer Program                  A program that generally offers free tax help to people who make
                                   $51,000 or less and need assistance in preparing their own tax
                                   returns. IRS-certified volunteers provide free basic income tax
                                   return preparation with electronic filing to qualified individuals in
                                   local communities.
Webinar                            A live online educational presentation during which participating
                                   viewers can submit questions and comments.
YouTube                            A popular video sharing website that allows users to upload videos
                                   for private or public viewing.

                                                                                                  Page 27
            The Online Payment Agreement Program
      Benefits Taxpayers and the Internal Revenue Service,
           but More Could Be Done to Expand Its Use



                                                   Appendix VI


Management’s Response to the Draft Report




                                                         Page 28
      The Online Payment Agreement Program
Benefits Taxpayers and the Internal Revenue Service,
     but More Could Be Done to Expand Its Use




                                                   Page 29
      The Online Payment Agreement Program
Benefits Taxpayers and the Internal Revenue Service,
     but More Could Be Done to Expand Its Use




                                                   Page 30
      The Online Payment Agreement Program
Benefits Taxpayers and the Internal Revenue Service,
     but More Could Be Done to Expand Its Use




                                                   Page 31
